<html>
<title> - ORGANIZATIONAL MEETING FOR THE 114TH CONGRESS: COMMITTEE RULES; OVERSIGHT PLAN; PARKING POLICY; AND RESOLUTION TO DECLARE THE ELECTRONIC REPOSITORY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





    ORGANIZATIONAL MEETING FOR THE 114TH CONGRESS; COMMITTEE RULES; 
     OVERSIGHT PLAN; PARKING POLICY; AND RESOLUTION TO DECLARE THE 
                         ELECTRONIC REPOSITORY

=======================================================================

                         ORGANIZATIONAL MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, JANUARY 27, 2015

                               __________

      Printed for the use of the Committee on House Administration



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       Available on the Internet:
                             www.fdsys.gov
                             
                                      ______

                U.S. GOVERNMENT PUBLISHING OFFICE 

93-209                   WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
BARBARA COMSTOCK, Virginia             Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
RODNEY DAVIS, Illinois               JUAN VARGAS, California
RICHARD B. NUGENT, Florida

                           Professional Staff

                       Sean Moran, Staff Director
                 Kyle Anderson, Minority Staff Director

 
    ORGANIZATIONAL MEETING FOR THE 114TH CONGRESS: COMMITTEE RULES; 
     OVERSIGHT PLAN; PARKING POLICY; AND RESOLUTION TO DECLARE THE 
                         ELECTRONIC REPOSITORY

                              ----------                              


                       TUESDAY, JANUARY 27, 2015

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:30 a.m., in room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the committee) presiding.
    Present: Representatives Miller, Harper, Nugent, Davis, 
Comstock, Brady, and Vargas.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Bob Sensenbrenner, Deputy General 
Counsel; John L. Dickhaus, Legislative Clerk; Erin Sayago, 
Communications Director; Kyle Anderson, Minority Staff 
Director; Matt Pinkus, Minority Senior Policy Advisor; Khalil 
Abboud, Minority Deputy Staff Director/Director of Legislative 
Operations; Mike Harrison, Minority Chief Counsel; and Eddie 
Flaherty, Minority Chief Clerk.
    The Chairman. I call to order the Committee on House 
Administration for its organizational meeting for the 114th 
Congress. A quorum is present, so we will proceed. We are here 
today to formally adopt for the 114th Congress the rules of the 
committee, our oversight plan, the parking policy for this 
Congress, and a resolution to designate the location for 
electronically posted documents for the purpose of continuing 
our efforts to improve transparency and public access to 
legislative materials.
    I certainly want to begin by thanking everyone for their 
attendance here this morning and service to our committee as 
well, both our returning Members and our two new Members as 
well. Our mission is to ensure the House of Representatives 
runs efficiently, effectively, and in a way that keeps the 
people's House accessible to the people. We have to accomplish 
all of these goals in a very open and transparent way to make 
sure that Members of Congress have the tools that they need to 
serve their constituents and our Nation as a whole.
    Our committee is principally charged with guarding the 
foundation of our system of democracy and government, the 
sacred right to vote. Our committee is responsible for 
oversight of the Federal Elections Commission and the Elections 
Assistance Commission, which is something this committee has 
been, on our side anyway, been trying to eliminate. But at any 
rate, we are responsible for making certain that our Federal 
elections process remains open; and free and fair; and operates 
with the highest level of integrity.
    Our committee also has an oversight role in protecting the 
House side of the Capitol, security of the campus here on our 
side, and certainly determining the operating budgets as well 
for each Member of the House and every committee. Most of what 
our committee's work does doesn't make headlines, but that does 
not make our work any less important. We work with our House 
officers to ensure the safety and security of every Member of 
Congress, their staff, and the millions of visitors who visit 
our Nation's Capitol each year.
    In addition to serving as chair of House Admin here, I also 
serve as vice chair of the House Committee on Homeland 
Security. So I certainly understand that security can never be 
taken for granted, that we always need to constantly evaluate 
and reevaluate our policies and security protocols, including 
cybersecurity. We have to make certain we are doing everything 
we can to guard this sacred institution.
    We have had a very sobering reminder of just how real the 
threats are just 2 weeks ago, when the FBI arrested an 
individual in Ohio for plotting to attack the U.S. Capitol--and 
that was a result of well coordinated efforts by our law 
enforcement agencies, including the U.S. Capitol Police--as a 
reminder that we always need to remain vigilant.
    Another large portion of our workload consists of 
identifying ways to assist Members and their staff, both here 
in D.C. and back in their districts, with their daily 
operations and communications with their constituents. Each 
member of this committee was asked to serve because of his or 
her unique skills and ability to help run this institution in 
an efficient, transparent way, and to protect the integrity of 
our Nation's Federal election system and campaign system as 
well. So we have an opportunity here to make a very positive, 
lasting impact on the way that this institution operates and 
the way that Members serve their constituents.
    We are here to move this institution forward in a 
meaningful way, in a service-oriented way, by promoting 
innovation and, of course, always holding ourselves to the 
highest levels of accountability to the American people.
    Lastly, our committee does a significant amount of work 
with oversight over the Library of Congress and the Smithsonian 
Institution. Both of those, institutions, of course, provide a 
tremendous amount of resources to everyone. These institutions 
open the doors toward learning and wonder. And I know I speak 
for every Member here when I say that it is continually 
important that we work together to ensure that these resources 
are available for generations to come.
    A particular point that I would like to briefly mention is 
that we were unable last Congress to hold a hearing on the 
Latino museum due to scheduling conflicts as we got toward the 
end of the session. But this is something that we would like to 
consider this Congress. I know the ranking member and I have 
talked about that at length.
    Let me just take a moment, before we go to our resolutions 
here, to briefly recognize the Republican members of this 
committee. Returning for the 114th, first of all, is 
Congressman Gregg Harper, who represents Mississippi's third 
District. He is in his fourth term in Congress, fourth term on 
this committee. And we were just chatting about the fantastic 
job he does, particularly with the Library of Congress, as he 
serves on that joint committee. And any time anyone asks me a 
question about the Library of Congress, I just ask Gregg 
because he knows everything about it, I think. And they love 
him at the Library of Congress and have a very high regard and 
respect for the work that you do there. So we appreciate that.
    Aaron Schock, who is not with us--I think he is in another 
committee right now--but also represents the 18th Congressional 
District of Illinois; fourth term on the House and third on 
this committee, and does just a great job for us.
    Rich Nugent represents the 11th Congressional District in 
Florida; third term in the House and on this committee. With 
his background as a former county sheriff, I know you were 
speaking this morning to all of the sheriffs and the law 
enforcement, of which there are many, many who are in town 
today. We are going to avail ourselves of your expertise on 
security as we were just talking about oversight with the U.S. 
Capitol Police.
    Then our two new Members as well, Rodney Davis, who 
represents the 13th Congressional District in Illinois; second 
term in the House and first term on this committee. But as a 
former staffer, actually, before you were elected as a Member 
of Congress.
    You and I have had many conversations already about various 
things that happen in the House that could be improved. So as 
we really focus this committee's attention on Member services 
and how we can do a better job, we will be looking for you to--
with all of those conversations--and implement some of your 
great ideas.
    Then Barbara Comstock, welcome her to the committee as 
well. She represents the 10th Congressional District in 
Virginia; first term of course in the House. And she has had a 
very interesting career, but also was at one point a former 
staffer in the House.
    So, as I said about Representative Davis, we will be 
looking for you for all kinds of various things that we can do 
to improve Member services, as well as everything else that 
this committee does. You have really a wealth of government 
experience and business background as well; that I think will 
be very, very helpful to us.
    So we are looking forward for the next 2 years as we 
certainly put the taxpayers first and our institution, how we 
can run it more effectively, more cost-efficiently as well and 
working with all of our House officers. This is truly a 
nonpartisan goal I think and I know one, as I say, that our 
ranking member and all the members of the committee share.
    So, at this time, I would like to recognize the ranking 
member, Mr. Brady, from Pennsylvania, for his comments.
    Mr. Brady. Thank you, Madam Chair.
    I am happy to be able to join you and my colleagues as we 
officially begin our work for the 114th Congress. I would like 
to welcome back my friends Ms. Lofgren, who, without question, 
is the smartest lady that I know. Just ask her a question on 
any aspect of the law and she can let you know right away 
whether we are on the right track or the wrong track.
    Mr. Vargas, again, thank you for coming back. You have got 
a great background in education. It is my pleasure--any time I 
can, I will let you do a bill for me. You know, you do a great 
job. If you keep doing such a good job, I might get you a 
bigger car. We have to get you a truck or something. But I 
appreciate you coming back and serving.
    To as well my friends on the other side of the aisle, 
including our new additions, Mr. Davis from Illinois and Ms. 
Comstock of Virginia, welcome.
    This is a committee that serves all our Members. We have 
been doing that for as long as I have been on this committee. 
And we make sure that our Members get the right information at 
the right and proper time, and make sure--we ask them all the 
time to make sure that they do contact us before they get 
contacted by any other committee. We don't want to see that 
happen.
    Our primary purpose is to serve Members and the 
institution; 95 percent of what we do as a committee is done on 
a bipartisan basis. I am very pleased that we have developed a 
strong working relationship that allows us to get things done. 
Our Democratic and Republican staffs work extremely well 
together, as we saw in their ability to organize and execute 
last year's new Member orientation, which is a lot of work. 
They did a great job. And every new Member always comes up to 
me--and I am sure they come up to you--and said what a great 
job our staffs have done.
    While some other committees boasted about their ability to 
work together on a bipartisan basis, our committee actually 
accomplished that goal. I would like to recommend that the 
Democratic Members support the four resolutions before us 
today. The committee rules, oversight plan, electronic 
repository resolution, and parking policies have been developed 
with our input. And I encourage their adoption.
    Once again, welcome to the new Members.
    Welcome you all back, the old Members.
    And, Madam Chair, all our returning Members, I look forward 
to the important work of this committee, and needless to say 
that we work together for a simple reason, because you are a 
class lady and a pleasure to work with. And, from time to time, 
we do know our pay scales. And when it is over our head, we 
recognize that. You recognize that with me, and I certainly 
recognize that with you. We do have to disagree from time to 
time, but I have never seen any time we were disagreeable.
    So thank you, thanks for returning, and thank you, again, 
for working with us.
    The Chairman. I thank the gentleman very, very much for his 
comments.
    It has been a pleasure to work with you for the last 
Congress certainly. As you say, sometimes we don't agree on 
every issue, but certainly this committee for the very most 
part is a very bipartisan committee, and we are united really 
in a common goal of service to our Members.
    I also appreciate what you said about the staff.
    Representative Comstock can tell us firsthand about the new 
Members orientation and the staff work that happened on this 
committee, both our staff on our side, and Kyle sitting behind 
you; and everybody that works for him. Really, I think that was 
one of the more effective new Members orientations that we have 
had--at least I heard that from a number of folks. I can 
remember laying awake at night thinking, Oh, my gosh, I wonder 
if we forgot to tell them this. But then I thought, How would 
they know? They are brand new. They wouldn't know if we forgot. 
But I think we covered everything as well as we could. But we 
can always improve. So we look forward to some comments on 
that.
    Is there any other Member that would like to make any 
comments before we go to the resolutions? Okay.
    The first item on the agenda is the consideration of the 
Committee Resolution 114-1, which is the proposed committee 
rules for the 114th Congress. I now call before the committee 
Committee Resolution 114-1, the committee rules.
    Without objection, the first reading of the resolution is 
dispensed with, and the resolution is considered read and open 
for amendment at any point.
    [The information follows:]

                       COMMITTEE RESOLUTION 114-1

    Resolved, that the rules of the Committee on House 
Administration for the 114th Congress are hereby adopted, as 
follows:

             Rules of the Committee on House Administration


                    One Hundred Fourteenth Congress


                               RULE NO. 1

General Provisions

    (a) The Rules of the House are the rules of the Committee 
so far as applicable, except that a motion to recess from day 
to day is a privileged motion in the Committee.
    (b) The Committee is authorized at any time to conduct such 
investigations and studies as it may consider necessary or 
appropriate in the exercise of its responsibilities under House 
Rule X and, subject to the adoption of expense resolutions as 
required by House Rule X, clause 6, to incur expenses 
(including travel expenses) in connection therewith.
    (c) The Committee is authorized to have printed and bound 
testimony and other data presented at hearings held by the 
Committee, and to make such information available to the 
public. All costs of stenographic services and transcripts in 
connection with any meeting or hearing of the Committee shall 
be paid from the appropriate House account.
    (d) The Committee shall submit to the House, not later than 
January 2 of each odd-numbered year, a report on the activities 
of the committee under House Rules X and XI.
    (e) The Committee's rules shall be made publicly available 
in electronic form and published in the Congressional Record 
not later than 30 days after the Committee is elected in each 
odd-numbered year.

                               RULE NO. 2

Regular and Special Meetings

    (a) The regular meeting date of the Committee on House 
Administration shall be the second Wednesday of every month 
when the House is in session in accordance with Clause 2(b) of 
House Rule XI. If the House is not in session on the second 
Wednesday of a month, the regular meeting date shall be the 
third Wednesday of that month. Additional meetings may be 
called by the Chair of the Committee as she or he may deem 
necessary or at the request of a majority of the members of the 
Committee in accordance with Clause 2(c) of House Rule XI. The 
determination of the business to be considered at each meeting 
shall be made by the Chair subject to Clause 2(c) of House Rule 
XI. A regularly scheduled meeting may be dispensed with if, in 
the judgment of the Chair, there is no need for the meeting.
    (b) If the Chair is not present at any meeting of the 
Committee, the ranking member of the majority party who is 
present shall preside at the meeting.
    (c) The Chair, in the case of meetings to be conducted by 
the Committee shall make public announcement of the date, 
place, and subject matter of any meeting to be conducted on any 
measure or matter. Such meeting shall not commence earlier than 
the third day on which members have notice thereof. If the 
Chair, with the concurrence of the ranking minority member, 
determines that there is good cause to begin the meeting 
sooner, or if the Committee so determines by majority vote, a 
quorum being present, the Chair shall make the announcement at 
the earliest possible date. The announcement shall promptly be 
made publicly available in electronic form and published in the 
Daily Digest.
    (d) The Chair, in the case of meetings to be conducted by 
the Committee shall make available on the Committee's web site 
the text of any legislation to be marked up at a meeting at 
least 24 hours before such meeting (or at the time of an 
announcement made within 24 hours of such meeting). This 
requirement shall also apply to any resolution or regulation to 
be considered at a meeting.

                               RULE NO. 3

Open Meetings

    As required by Clause 2(g), of House Rule XI, each meeting 
for the transaction of business, including the markup of 
legislation of the Committee shall be open to the public except 
when the Committee in open session and with a quorum present 
determines by record vote that all or part of the remainder of 
the meeting on that day shall be closed to the public because 
disclosure of matters to be considered would endanger national 
security, would compromise sensitive law enforcement 
information, or would tend to defame, degrade or incriminate 
any person, or otherwise would violate any law or rule of the 
House. Provided, however, that no person other than members of 
the Committee, and such congressional staff and such other 
persons as the Committee may authorize, shall be present in any 
business or markup session which has been closed to the public. 
To the maximum extent practicable, the Chair shall cause to be 
provided audio and video coverage of each hearing or meeting 
that allows the public to easily listen to and view the 
proceedings and maintain the recordings of such coverage in a 
manner that is easily accessible to the public.

                               RULE NO. 4

Records and Rollcalls

    (a)(1) A record vote shall be held if requested by any 
member of the Committee.
    (2) The result of each record vote in any meeting of the 
Committee shall be made available for inspection by the public 
at reasonable times at the Committee offices, including a 
description of the amendment, motion, order or other 
proposition; the name of each member voting for and against; 
and the members present but not voting.
    (3) The Chairman shall make the record of the votes on any 
question on which a record vote is demanded available on the 
Committee's website not later than 48 hours after such vote is 
taken (excluding Saturdays, Sundays, and legal holidays). Such 
record shall include a description of the amendment, motion, 
order, or other proposition, the name of each member voting for 
and each member voting against such amendment, motion, order, 
or proposition, and the names of those members of the Committee 
present but not voting.
    (4) The Chairman shall make available on the Committee's 
website not later than 24 hours (excluding Saturdays, Sundays, 
and legal holidays) after the adoption of any amendment to a 
measure or matter the text of such amendment.
    (b)(1) Subject to subparagraph (2), the Chairman may 
postpone further proceedings when a record vote is ordered on 
the question of approving any measure or matter or adopting an 
amendment. The Chair may resume proceedings on a postponed 
request at any time.
    (2) In exercising postponement authority under subparagraph 
(1), the Chairman shall take all reasonable steps necessary to 
notify members on the resumption of proceedings on any 
postponed record vote.
    (3) When proceedings resume on a postponed question, 
notwithstanding any intervening order for the previous 
question, an underlying proposition shall remain subject to 
further debate or amendment to the same extent as when the 
question was postponed.
    (c) All Committee hearings, records, data, charts, and 
files shall be kept separate and distinct from the 
congressional office records of the member serving as Chair; 
and such records shall be the property of the House and all 
members of the House shall have access thereto.
    (d) House records of the Committee which are at the 
National Archives shall be made available pursuant to House 
Rule VII. The Chairman shall notify the ranking minority member 
of any decision to withhold a record pursuant to the rule, and 
shall present the matter to the Committee upon written request 
of any Committee member.
    (e) To the maximum extent feasible, the Committee shall 
make its publications available in electronic form.

                               RULE NO. 5

Proxies

    No vote by any member in the Committee may be cast by 
proxy.

                               RULE NO. 6

Power To Sit and Act; Subpoena Power

    (a) For the purpose of carrying out any of its functions 
and duties under House Rules X and XI, the Committee is 
authorized (subject to subparagraph (b)(1) of this paragraph)--
    (1) to sit and act at such times and places within the 
United States, whether the House is in session, has recessed, 
or has adjourned, and to hold such hearings; and (2) to 
require, by subpoena or otherwise, the attendance and testimony 
of such witnesses and the production of such books, records, 
correspondence, memorandums, papers, documents and other 
materials as it deems necessary, including materials in 
electronic form. The Chair, or any member designated by the 
Chair, may administer oaths to any witness.
    (b)(1) A subpoena may be authorized and issued by the 
Committee in the conduct of any investigation or series of 
investigations or activities, only when authorized by a 
majority of the members voting, a majority being present. The 
power to authorize and issue subpoenas under subparagraph 
(a)(2) may be delegated to the Chair pursuant to such rules and 
under such limitations as the Committee may prescribe. 
Authorized subpoenas shall be signed by the Chair or by any 
member designated by the Committee, and may be served by any 
person designated by the Chair or such member.
    (2) Compliance with any subpoena issued by the Committee 
may be enforced only as authorized or directed by the House.

                               RULE NO. 7

Quorums

    No measure or recommendation shall be reported to the House 
unless a majority of the Committee is actually present. For the 
purposes of taking any action other than reporting any measure, 
issuance of a subpoena, closing meetings, promulgating 
Committee orders, or changing the rules of the Committee, one-
third of the members of the Committee shall constitute a 
quorum. For purposes of taking testimony and receiving 
evidence, two members shall constitute a quorum.

                               RULE NO. 8

Amendments

    Any amendment offered to any pending legislation before the 
Committee must be made available in written form when requested 
by any member of the Committee. If such amendment is not 
available in written form when requested, the Chair will allow 
an appropriate period of time for the provision thereof.

                               RULE NO. 9

Hearing Procedures

    (a) The Chair, in the case of hearings to be conducted by 
the Committee shall make public announcement of the date, 
place, and subject matter of any hearing to be conducted on any 
measure or matter at least one (1) week before the commencement 
of that hearing. If the Chair, with the concurrence of the 
ranking minority member, determines that there is good cause to 
begin the hearing sooner, or if the Committee so determines by 
majority vote, a quorum being present, the Chair shall make the 
announcement at the earliest possible date. The clerk of the 
Committee shall promptly notify the Daily Digest Clerk of the 
Congressional Record as soon as possible after such public 
announcement is made.
    (b) Unless excused by the Chair, each witness who is to 
appear before the Committee shall file with the clerk of the 
Committee, at least 48 hours in advance of his or her 
appearance, a written statement of his or her proposed 
testimony and shall limit his or her oral presentation to a 
summary of his or her statement.
    (c) When any hearing is conducted by the Committee upon any 
measure or matter, the minority party members on the Committee 
shall be entitled, upon request to the Chair by a majority of 
those minority members before the completion of such hearing, 
to call witnesses selected by the minority to testify with 
respect to that measure or matter during at least one day of 
hearings thereon.
    (d) Reserved.
    (e) Committee members may question witnesses only when they 
have been recognized by the Chair for that purpose, and only 
for a 5-minute period until all members present have had an 
opportunity to question a witness. The 5-minute period for 
questioning a witness by any one member can be extended as 
provided by House Rules. The questioning of a witness in 
Committee hearings shall be initiated by the Chair, followed by 
the ranking minority member and all other members alternating 
between the majority and minority. In recognizing members to 
question witnesses in this fashion, the Chair shall take into 
consideration the ratio of the majority to minority members 
present and shall establish the order of recognition for 
questioning in such a manner as not to disadvantage the members 
of the majority. The Chair may accomplish this by recognizing 
two majority members for each minority member recognized.
    (f) The following additional rules shall apply to hearings 
of the Committee as applicable:
    (1) The Chair at a hearing shall announce in an opening 
statement the subject of the investigation.
    (2) A copy of the Committee rules and this clause shall be 
made available to each witness as provided by clause 2(k)(2) of 
Rule XI.
    (3) Witnesses at hearings may be accompanied by their own 
counsel for the purpose of advising them concerning their 
constitutional rights.
    (4) The Chair may punish breaches of order and decorum, and 
of professional ethics on the part of counsel, by censure and 
exclusion from the hearings; and the Committee may cite the 
offender to the House for contempt.
    (5) If the Committee determines that evidence or testimony 
at a hearing may tend to defame, degrade, or incriminate any 
person, it shall--
    (A) afford such person an opportunity voluntarily to appear 
as a witness;
    (B) receive such evidence or testimony in executive 
session; and
    (C) receive and dispose of requests from such person to 
subpoena additional witnesses.
    (6) Except as provided in subparagraph (f)(5), the Chair 
shall receive and the Committee shall dispose of requests to 
subpoena additional witnesses.
    (7) No evidence or testimony taken in executive session may 
be released or used in public sessions without the consent of 
the Committee.
    (8) In the discretion of the Committee, witnesses may 
submit brief and pertinent sworn statements in writing for 
inclusion in the record. The Committee is the sole judge of the 
pertinence of testimony and evidence adduced at its hearing.
    (9) A witness may obtain a transcript copy of his testimony 
given at a public session or, if given at an executive session, 
when authorized by the Committee.

                              RULE NO. 10

Procedures for Reporting Measures or Matters

    (a)(1) It shall be the duty of the Chair to report or cause 
to be reported promptly to the House any measure approved by 
the Committee and to take or cause to be taken necessary steps 
to bring the matter to a vote.
    (2) In any event, the report of the Committee on a measure 
which has been approved by the Committee shall be filed within 
7 calendar days (exclusive of days on which the House is not in 
session) after the day on which there has been filed with the 
clerk of the Committee a written request, signed by a majority 
of the members of the Committee, for the reporting of that 
measure. Upon the filing of any such request, the clerk of the 
Committee shall transmit immediately to the Chair notice of the 
filing of that request.
    (b)(1) No measure or recommendation shall be reported to 
the House unless a majority of the Committee is actually 
present.
    (2) With respect to each record vote on a motion to report 
any measure or matter of a public character, and on any 
amendment offered to the measure or matter, the total number of 
votes cast for and against, and the names of those members 
voting for and against, shall be included in the Committee 
report on the measure or matter.
    (c) The report of the Committee on a measure or matter 
which has been approved by the Committee shall include the 
matters required by Clause 3(c) of Rule XIII of the Rules of 
the House.
    (d) If, at the time any measure or matter is ordered 
reported by the Committee, any member of the Committee gives 
notice of intention to file supplemental, minority, additional, 
or dissenting views, that member shall be entitled to not less 
than two additional calendar days after the day of such notice, 
commencing on the day on which the measure or matter(s) was 
approved, excluding Saturdays, Sundays, and legal holidays, in 
which to file such views, in writing and signed by that member, 
with the clerk of the Committee. All such views so filed by one 
or more members of the Committee shall be included within, and 
shall be a part of, the report filed by the Committee with 
respect to that measure or matter. The report of the Committee 
upon that measure or matter shall be printed in a single volume 
which--
    (1) shall include all supplemental, minority, additional or 
dissenting views, in the form submitted, by the time of the 
filing of the report, and
    (2) shall bear upon its cover a recital that any such 
supplemental, minority, additional, or dissenting views (and 
any material submitted under subparagraph (c)) are included as 
part of the report. This subparagraph does not preclude--
    (A) the immediate filing or printing of a Committee report 
unless timely request for the opportunity to file supplemental, 
minority, additional, or dissenting views has been made as 
provided by paragraph (c); or
    (B) the filing of any supplemental report upon any measure 
or matter which may be required for the correction of any 
technical error in a previous report made by the Committee upon 
that measure or matter.
    (3) shall, when appropriate, contain the documents required 
by Clause 3(e) of Rule XIII of the Rules of the House.
    (e) The Chair, following consultation with the ranking 
minority member, is directed to offer a motion under clause 1 
of Rule XXII of the Rules of the House, relating to going to 
conference with the Senate, whenever the Chair considers it 
appropriate.
    (f) If hearings have been held on any such measure or 
matter so reported, the Committee shall make every reasonable 
effort to have such hearings published and available to the 
members of the House prior to the consideration of such measure 
or matter in the House.
    (g) The Chair may designate any majority member of the 
Committee to act as ``floor manager'' of a bill or resolution 
during its consideration in the House.

                              RULE NO. 11

Committee Oversight

    The Committee shall conduct oversight of matters within the 
jurisdiction of the Committee in accordance with House Rule X, 
clause 2 and clause 4. Not later than February 15 of the first 
session of a Congress, the Committee shall, in a meeting that 
is open to the public and with a quorum present, adopt its 
oversight plan for that Congress in accordance with House Rule 
X, clause 2(d).

                              RULE NO. 12

Review of Continuing Programs; Budget Act Provisions

    (a) The Committee shall, in its consideration of all bills 
and joint resolutions of a public character within its 
jurisdiction, ensure that appropriation for continuing programs 
and activities of the Federal Government will be made annually 
to the maximum extent feasible and consistent with the nature, 
requirement, and objectives of the programs and activities 
involved. For the purposes of this paragraph a Government 
agency includes the organizational units of government listed 
in Clause 4(e) of Rule X of House Rules.
    (b) The Committee shall review, from time to time, each 
continuing program within its jurisdiction for which 
appropriations are not made annually in order to ascertain 
whether such program could be modified so that appropriations 
therefore would be made annually.
    (c) The Committee shall, on or before February 25 of each 
year, submit to the Committee on the Budget (1) its views and 
estimates with respect to all matters to be set forth in the 
concurrent resolution on the budget for the ensuing fiscal year 
which are within its jurisdiction or functions, and (2) an 
estimate of the total amounts of new budget authority, and 
budget outlays resulting there from, to be provided or 
authorized in all bills and resolutions within its jurisdiction 
which it intends to be effective during that fiscal year.
    (d) As soon as practicable after a concurrent resolution on 
the budget for any fiscal year is agreed to, the Committee 
(after consulting with the appropriate committee or committees 
of the Senate) shall subdivide any allocation made to it in the 
joint explanatory statement accompanying the conference report 
on such resolution, and promptly report such subdivisions to 
the House, in the manner provided by section 302 of the 
Congressional Budget Act of 1974.
    (e) Whenever the Committee is directed in a concurrent 
resolution on the budget to determine and recommend changes in 
laws, bills, or resolutions under the reconciliation process it 
shall promptly make such determination and recommendations, and 
report a reconciliation bill or resolution (or both) to the 
House or submit such recommendations to the Committee on the 
Budget, in accordance with the Congressional Budget Act of 
1974.

                              RULE NO. 13

Broadcasting of Committee Hearings and Meetings

    Whenever any hearing or meeting conducted by the Committee 
is open to the public, those proceedings shall be open to 
coverage by television, radio, and still photography, as 
provided in Clause 4 of House Rule XI, subject to the 
limitations therein. Operation and use of any Committee 
Internet broadcast system shall be fair and nonpartisan and in 
accordance with Clause 4(b) of rule XI and all other applicable 
rules of the Committee and the House.

                              RULE NO. 14

Committee Staff

    The staff of the Committee on House Administration shall be 
appointed as follows:
    (a) The staff shall be appointed by the Chair except as 
provided in paragraph (b), and may be removed by the Chair, and 
shall work under the general supervision and direction of the 
Chair;
    (b) All staff provided to the minority party members of the 
Committee shall be appointed by the ranking minority member, 
and may be removed by the ranking minority member of the 
Committee, and shall work under the general supervision and 
direction of such member;
    (c) The appointment of all professional staff shall be 
subject to the approval of the Committee as provided by, and 
subject to the provisions of, clause 9 of Rule X of the Rules 
of the House;
    (d) The Chair shall fix the compensation of all staff of 
the Committee, after consultation with the ranking minority 
member regarding any minority party staff, within the budget 
approved for such purposes for the Committee.

                              RULE NO. 15

Travel of Members and Staff

    (a) Consistent with the primary expense resolution and such 
additional expense resolutions as may have been approved, the 
provisions of this rule shall govern travel of Committee 
members and staff. Travel for any member or any staff member 
shall be paid only upon the prior authorization of the Chair or 
her or his designee. Travel may be authorized by the Chair for 
any member and any staff member in connection with the 
attendance at hearings conducted by the Committee and meetings, 
conferences, and investigations which involve activities or 
subject matter under the general jurisdiction of the Committee. 
Before such authorization is given there shall be submitted to 
the Chair in writing the following:
    (1) The purpose of the travel;
    (2) The dates during which the travel will occur;
    (3) The locations to be visited and the length of time to 
be spent in each; and
    (4) The names of members and staff seeking authorization.
    (b)(1) In the case of travel outside the United States of 
members and staff of the Committee for the purpose of 
conducting hearings, investigations, studies, or attending 
meetings and conferences involving activities or subject matter 
under the legislative assignment of the committee, prior 
authorization must be obtained from the Chair. Before such 
authorization is given, there shall be submitted to the Chair, 
in writing, a request for such authorization. Each request, 
which shall be filed in a manner that allows for a reasonable 
period of time for review before such travel is scheduled to 
begin, shall include the following:
    (A) the purpose of the travel;
    (B) the dates during which the travel will occur;
    (C) the names of the countries to be visited and the length 
of time to be spent in each;
    (D) an agenda of anticipated activities for each country 
for which travel is authorized together with a description of 
the purpose to be served and the areas of committee 
jurisdiction involved; and
    (E) the names of members and staff for whom authorization 
is sought.
    (2) At the conclusion of any hearing, investigation, study, 
meeting or conference for which travel outside the United 
States has been authorized pursuant to this rule, members and 
staff attending meetings or conferences shall submit a written 
report to the Chair covering the activities and other pertinent 
observations or information gained as a result of such travel.
    (c) Members and staff of the Committee performing 
authorized travel on official business shall be governed by 
applicable laws, resolutions, or regulations of the House and 
of the Committee on House Administration pertaining to such 
travel.

                              RULE NO. 16

    Reserved.

                              RULE NO. 17

    Reserved.

                              RULE NO. 18

Other Procedures and Regulations

    The Chair may establish such other procedures and take such 
actions as may be necessary to carry out the foregoing rules or 
to facilitate the effective operation of the committee.

                              RULE NO. 19

Designation of Clerk of the Committee

    For the purposes of these rules and the Rules of the House 
of Representatives, the staff director of the Committee shall 
act as the clerk of the Committee.
    The Chairman. Pursuant to House rule XI, clause 2, the 
Committee on House Administration will adopt written rules 
governing its procedures. The proposed rules are similar to the 
rules adopted by this committee during the last Congress, and 
they conform with the recent changes to the House rules, as 
amended, in this Congress.
    Overall, our committee rules provide for a strong structure 
to accomplish our oversight and goals for pushing forward 
legislative initiatives. As we mentioned, we worked with Mr. 
Brady's staff very closely to update our rules. We appreciate 
their input, and I am hoping that all Members will support 
them.
    I would recognize the ranking member, Mr. Brady, if he 
would like to make any comment.
    Mr. Brady. No.
    The Chairman. Okay.
    Any other comment?
    Any amendment?
    If not, then I move that the committee adopt the committee 
resolution.
    The question is on the motion to adopt the resolution.
    I ask all the Members who are in favor of the motion, 
signify by saying aye.
    Any opposed?
    If not, in the opinion of the chair, the ayes have it.
    The ayes have it.
    The motion is agreed to. Without objection, the motion to 
reconsider is laid upon the table.
    The next item on the agenda is consideration of Committee 
Resolution 114-2, the committee oversight plan.
    I now call before the committee Committee Resolution 114-2, 
the committee oversight plan.
    Without objection, the first reading of the resolution is 
dispensed with, and the resolution is considered read and open 
for amendment at any other point.
    [The information follows:]

                      COMMITTEE RESOLUTION 114-XX

    Resolved, that the Oversight Plan of the Committee on House 
Administration for the 114th Congress, as required pursuant to 
clause 2(d)(1) of Rule X, is hereby adopted, as follows:

    Committee on House Administration 114th Congress Oversight Plan


                            MEMBER SERVICES

    <bullet> Oversee Members' allowance amounts, including 
structure and regulations.
    <bullet> Provide guidance and outreach to congressional 
offices to ensure compliance with Committee regulations.
    <bullet> Review and revise the Guide to Outfitting and 
Maintaining an Office of the U.S. House of Representatives, a 
set of regulations governing the acquisition, transfer, and 
disposal of furnishings, equipment, software, and related 
services.
    <bullet> Review the calculation of the Members' 
Representational Allowances and ensure that all Members have 
adequate resources for representing their constituents.
    <bullet> Oversee the processing of vouchers and direct 
payments, including those for payroll. Continue to monitor the 
migration to the use of the electronic vouchering system.

New Member Orientation

    <bullet> Plan, implement, and oversee the New Member 
Orientation Program for newly-elected Members of Congress.
    <bullet> Oversee the planning and implementation of the 
Congressional Research Service New Member Issues Seminar in 
Williamsburg.

Intern Program

    <bullet> In coordination with the Senate Committee on Rules 
and Administration, organize, administer, and oversee the 
Intern Lecture Series.
    <bullet> Review and consider revising the Intern Handbook 
and other publications and communication materials used in 
support of the Intern Program.
    <bullet> Continue and expand the Congressional Internship 
Program for Individuals with Intellectual Disabilities.

                    COMMITTEE FUNDING AND OVERSIGHT

    <bullet> Review Monthly Reports on committee activities and 
expenditures.
    <bullet> Review the Committees' Congressional Handbook 
regulations governing expenditure of committee funds and update 
regulations as needed.
    <bullet> Review Primary and any Secondary Expense 
Resolutions and approve authorization of committee-funding 
levels in committee and by House Resolution.
    <bullet> Review Committees' Franking expenditures.
    <bullet> Monitor continued implementation of the Committee 
broadcast program.

                CONGRESSIONAL ACCOUNTABILITY ACT OF 1995

    <bullet> Monitor application of the Congressional 
Accountability Act of 1995 (CAA) (PL 104-1).
    <bullet> Review regulations adopted by the Office of 
Compliance.
    <bullet> Evaluate resources available to the Office of 
Compliance and House employing offices to facilitate 
implementation of the Act.
    <bullet> Conduct general oversight of the Office of 
Compliance.
    <bullet> Monitor ongoing judicial proceedings to determine 
the impact on the CAA.

                          FRANKING COMMISSION

    <bullet> Oversee the Members' use of the congressional 
frank by providing guidance, advice, and counsel through 
consultation or advisory opinion on the frankability of 
congressional mail.
    <bullet> Review proposals to reform mass mailing practices 
of Members, and regulations governing such mailings, and 
monitor current prohibition on mass mailings 90 days before a 
primary or general election.
    <bullet> Review previously implemented rules to increase 
disclosure and improve the accounting of franked mail costs.
    <bullet> Revise the Regulations on the Use of the 
Congressional Frank and Rules on Practice in Proceedings Before 
the House Commission on Congressional Mailing Standards.

                  HOUSE OFFICERS AND HOUSE OPERATIONS

    <bullet> Coordinate with House officers and officials to 
develop long term goals for the administrative, financial and 
administrative functions of the House.
    <bullet> Work with House officers to identify and reduce 
spending and create more cost effective and efficient 
operations within the House.
    <bullet> Analyze management improvement proposals and other 
initiatives submitted by the House Officers, the Inspector 
General, the Capitol Police Board, the Architect of the 
Capitol, the Library of Congress, and other legislative branch 
agencies.
    <bullet> Coordinate with the Subcommittee on Legislative 
Appropriations on matters impacting operations of the House and 
joint entities.
    <bullet> Provide policy guidance to the House Officers, 
Inspector General and the joint entities as appropriate.
    <bullet> Oversee compliance with the House Employee 
Classification Act (2 U.S.C. 291 et seq.).
    <bullet> Assure coordination among officers and joint 
entities on administrative and technology matters.
    <bullet> Continue review of congressional continuity 
issues, including organizing sessions of Congress at alternate 
locations, technological support for Member communications and 
chamber operations and filling vacancies in the House.
    <bullet> Provide policy guidance and conduct oversight of 
security and safety issues and congressional entities charged 
with such roles.

Chief Administrative Officer

    <bullet> Provide policy direction for the Chief 
Administrative Officer. Continue the review of functions and 
administrative operations assigned to the Chief Administrative 
Officer.
    <bullet> Review House procurement policies and monitor the 
effectiveness of the Chief Administrative Officer's procurement 
and contract management functions. Review procedures for 
processing contracts with the House that exceed the threshold 
of $350,000.
    <bullet> Continue to review ongoing process and technology 
upgrades to the House financial management system.
    <bullet> Continue to monitor compliance with House Audit. 
Review the structure of House Information Resources and 
determine organizational direction of technology services in 
the House.
    <bullet> Review and oversee information technology services 
provided, maintained or hosted by House Information Resources. 
Continue oversight of failsafe procedures to guarantee 
continuity of operations.
    <bullet> Review new technology initiatives to better serve 
Members, committees, and the public.
    <bullet> Review semi-annual financial and operational 
status reports; oversee implementation of changes in operations 
to improve services and increase efficiencies.
    <bullet> Review the operations of the House gift shop and 
its management.
    <bullet> Continued review of House restaurant operations; 
furniture policy, inventory and selection; and alternatives to 
the current mail delivery process in order to strengthen the 
services and tools available to Members and staff.
    <bullet> Examine Chief Administrative Officer's role in 
assuring accessibility to the House wing of the Capitol, the 
House Office Buildings and other House facilities consistent 
with the Americans with Disabilities Act.
    <bullet> Review staff benefits offered by the House and 
proposals to modify benefits.

Clerk of the House

    <bullet> Review and approve contracts and requests for 
proposals by the Clerk that exceed the $350,000 spending 
threshold.
    <bullet> Oversee the House Document Repository.
    <bullet> Review standards for the electronic exchange of 
legislative information among the Houses of Congress and 
legislative-branch agencies.
    <bullet> Coordinate on matters under the jurisdiction of 
the House Fine Arts Board.
    <bullet> Continue review of functions and administrative 
operations assigned to the Clerk.
    <bullet> Review of semi-annual financial and operational 
status reports; recommend changes in operations to improve 
services and increase efficiencies.
    <bullet> Review the printing needs of the Clerk to evaluate 
the potential for eliminating duplication.
    <bullet> Oversee preparation of congressionally-authorized 
publications.

Sergeant-at-Arms

    <bullet> Review and oversee security operations in the 
House, including the House chamber, the galleries, the Capitol, 
House Office Buildings, Capitol Grounds, and District offices.
    <bullet> Review and oversee initiatives designed to 
increase security and security awareness for Members and staff 
in district offices.
    <bullet> Review annual financial and operational status 
reports; recommend changes in operations to improve services 
and increase efficiencies.
    <bullet> Review impact of electronic access to controlled 
spaces.
    <bullet> Continue review of functions and administrative 
operations assigned to the Sergeant-at-Arms.
    <bullet> Review the security operation of House parking 
facilities, regulations, and allocation of parking spaces.
    <bullet> Consult with the Sergeant-at-Arms on policies 
adopted by the Capitol Police Board.
    <bullet> Review the policies and procedures for visitor 
access to the Capitol.
    <bullet> Review the printing needs of the Sergeant-at-Arms 
and the Capitol Police Board to identify the potential for 
eliminating duplication.
    <bullet> Examine Sergeant-at-Arms' role in assuring 
accessibility to the House wing of the Capitol, the House 
Office Buildings, and other House facilities consistent with 
the Americans with Disabilities Act.
    <bullet> Review the use of technology generally in the 
protection of the House of Representatives.
    <bullet> Oversee the Office of Emergency Management, 
including the implementation of coordinated plans for emergency 
evacuation and response.

House Inspector General

    <bullet> Review proposed audit plan and audit reports, 
including the annual financial statements audit.
    <bullet> Review comprehensive financial and operational 
audits of the House, investigate any irregularities uncovered, 
and monitor necessary improvements.
    <bullet> Monitor progress of House audits.
    <bullet> Continue review of functions and administrative 
operations assigned to the Inspector General.
    <bullet> Direct Inspector General to conduct management 
advisories to improve implementation and operation of key House 
functions.

           OVERSIGHT OF LEGISLATIVE BRANCH AND OTHER ENTITIES

Information and Technology Coordination

    <bullet> Oversee, in conjunction with the Senate, forums 
for the sharing of technology plans and capabilities among the 
legislative branch agencies.
    <bullet> Oversee, in conjunction with the Senate, the 
Legislative Branch Telecommunications group.
    <bullet> Oversee management of the Congress.gov website.
    <bullet> Oversee work of the Legislative Branch Financial 
Managers' Council.
    <bullet> Oversee, in conjunction with the Senate, proposals 
to reduce technology costs through consolidation and use of 
internet-based resources.

Library of Congress

    <bullet> Conduct a review of the progress that the Library 
has made in providing public access to government information, 
especially in electronic form.
    <bullet> Continue oversight of Library of Congress 
operations, including inventory and cataloguing systems.
    <bullet> Continue oversight of Law Library operations.
    <bullet> Continue oversight of Congressional Research 
Service operations, and consider any need to modify management 
of the Service.
    <bullet> Review implementation of the Library of Congress 
Fiscal Operations Improvement Act of 2000 (Public Law 106-481), 
the Veterans' Oral History Project Act (Public Law 106-380), 
the National Recording Preservation Act of 2000 (Public Law No: 
106-474), and the History of the House Awareness and 
Preservation Act (Public Law 106-99).
    <bullet> Consider human-resources legislation proposed by 
the Library.
    <bullet> Review the use of technology generally in Library 
of Congress operations.
    <bullet> Review printing policies of the Library of 
Congress to assure compliance with Title 44 of the U.S. Code.
    <bullet> Review reports by Library of Congress Inspector 
General and implementation of audit recommendations. Examine 
options to improve operation and structure of the Library of 
Congress Inspector General's office.

United States Capitol Police

    <bullet> Monitor administrative operations of the agency, 
including budgetary management, civilian component, attrition 
rates, recruitment efforts and incentive programs for officers 
and civilian employees.
    <bullet> Review proposals for additional USCP facilities 
and equipment.
    <bullet> Review analysis of uniformed officer post/duty 
assignments to determine and authorize force levels to meet the 
agency's security requirements within the Capitol complex to 
include the Capitol Visitor Center, the Library of Congress and 
U.S. Botanic Garden.
    <bullet> Review and consider proposals to improve USCP 
training program for new recruits, and in-service training.
    <bullet> Authorize and oversee the installation and 
maintenance of new security systems and devices proposed by the 
Police Board.
    <bullet> Review and authorize regulations prescribed by the 
Police Board for use of law enforcement authority by the 
Capitol Police.
    <bullet> Examine Capitol Police role in assuring 
accessibility to the House wing of the Capitol, House Office 
Buildings and other facilities consistent with the Americans 
with Disabilities Act.
    <bullet> Monitor the ongoing implementation of the Radio 
Modernization Project.
    <bullet> Review reports by USCP Inspector General and 
implementation of audit recommendations. Examine options to 
improve operation and structure of the USCP Inspector General's 
office.

Government Publishing Office

    <bullet> Oversee operations of the Government Publishing 
Office, including the Superintendent of Documents.
    <bullet> Review and adopt legislative proposals to reform 
government printing by eliminating redundancies and unnecessary 
printing, increasing efficiency, and enhancing public access to 
government publications.
    <bullet> Monitor implementation of remedial actions taken 
by management to address audit issues identified by the GPO 
Inspector General.
    <bullet> Review the printing needs of the House of 
Representatives to identify the potential for eliminating 
duplication.
    <bullet> Examine current GPO printing and binding 
regulations to determine advisability of change.
    <bullet> Oversee Superintendent of Documents' Sales and 
Depository Library Programs.
    <bullet> Review GPO labor practices and labor agreements.
    <bullet> Review use of GPO facilities and other assets to 
identify possible alternatives enhancing value to the Congress 
and the public.

Architect of the Capitol

    <bullet> Review the operations of the office of the 
Architect.
    <bullet> Review the electronic and procured services 
provided by the Architect.
    <bullet> Oversee Architect of the Capitol's maintenance of 
House buildings and the House side of the Capitol, and review 
plans for rehabilitation of House buildings, including 
oversight over the Cannon House Office Building renovation.
    <bullet> Continue oversight of life safety measures, 
accessibility measures, and improved evacuation mechanisms in 
House buildings.
    <bullet> Review the AOC Office of Sustainability's efforts 
to reduce energy consumption by the Capitol complex.
    <bullet> Oversee operations of the Capitol Visitors Center, 
in conjunction with the Senate Committee on Rules and 
Administration.
    <bullet> Review reports by Architect of the Capitol 
Inspector General and implementation of audit recommendations. 
Examine options to improve operation and structure of the 
Architect of the Capitol Inspector General's office.

Office of Congressional Accessibility Services

    <bullet> Oversee management and operations of Office of 
Congressional Accessibility Services, such as the 
implementation of the Americans with Disabilities Act (ADA), in 
conjunction with Senate Committee on Rules and Administration.

Smithsonian Institution

    <bullet> Review the Smithsonian Inspector General's reports 
on the status of the Smithsonian.
    <bullet> Oversee general museum and research facility 
operations of the Smithsonian Institution.
    <bullet> Review and evaluate the Smithsonian Institution's 
use of authorized public funds.
    <bullet> Review proposed appointments of Citizen Regents to 
the Smithsonian Institution's Board of Regents.
    <bullet> Review proposals for authorization of new 
Smithsonian facilities. Review Smithsonian policies regarding 
initiation of planning, design and construction of projects.
    <bullet> Review operations of the National Zoo.
    <bullet> Review operations and conduct oversight of 
Smithsonian Enterprises.
    <bullet> Review the use of technology generally in 
Smithsonian operations.
    <bullet> Review any proposals to charge fees for admission 
to any Smithsonian exhibits.

                      TECHNOLOGY USE BY THE HOUSE

    <bullet> Continue oversight of House Information Resources 
and other technology functions of the House to improve 
technology governance, services and the electronic 
dissemination of information.
    <bullet> Oversee implementation of House Rule XI 2(e)(4) 
requiring committee documentation to be made available 
electronically, to the maximum extent feasible.
    <bullet> Review cyber security measures.
    <bullet> Review technology standards for hearing rooms as 
they relate to the Committee broadcast program.
    <bullet> Oversee and continue to implement an enterprise 
House Disaster Recovery Program for House offices, standing and 
select committees and Member offices.
    <bullet> Oversee implementation of the House Office of 
Legislative Counsel & Law Revision Counsel's Modernization 
Project.
    <bullet> Oversee and coordinate the House strategic 
technology plan.
    <bullet> Oversee continuation of House technology 
assessment in both new media and cloud services.

            OVERSIGHT OF FEDERAL ELECTION LAW AND PROCEDURES

    <bullet> Recommend disposition of House election contests 
pending before the Committee; monitor any disputed election 
counts.
    <bullet> Review operations of the Federal Election 
Commission (FEC) and evaluate possible changes to improve 
efficiency, improve enforcement of the Federal Election 
Campaign Act, and improve procedures for the disclosure of 
contributions and expenditures. Consider authorization issues 
and make recommendations on the FEC's budget.
    <bullet> Review federal campaign-finance laws and 
regulations, including Presidential public financing, and 
consider potential reforms.
    <bullet> Examine the role and impact of political 
organizations on federal elections.
    <bullet> Review operations of the Election Assistance 
Commission (EAC) and evaluate possible changes to improve 
efficiency and improve implementation of the Help America Vote 
Act (HAVA). Consider authorization issues and make 
recommendations on the EAC's budget.
    <bullet> Examine the impact of amendments made by HAVA and 
the Military and Overseas Voter Empowerment Act (MOVE Act) to 
the Uniformed and Overseas Citizens Absentee Voting Act 
(UOCAVA), and consider proposals to improve voting methods for 
those serving and living abroad.
    <bullet> Review state and federal activities under the 
National Voter Registration Act to identify potential for 
improvement to voter registration and education programs and 
reducing costs of compliance for state and local government.
    <bullet> Review all aspects of registration and voting 
practices in federal elections. Monitor allegations of fraud 
and misconduct during all phases of federal elections and 
evaluate measures to improve the integrity of the electoral 
process.
    The Chairman. rule X, clause 2(d) of the House rules state 
that, no later than February 15 of the first session of 
Congress, the committee shall adopt an oversight plan for that 
Congress. The oversight plan will focus on carefully examining 
House operations and identifying ways to innovate and control 
costs. The committee will also work with the agencies that it 
has direct oversight of by establishing best practices to 
improve their services to the Members and their staffs, and 
both in-person and digital access to information for the 
millions of constituents visiting these agencies each and every 
year.
    I now recognize the ranking member, Mr. Brady, if he has 
any statement on the resolution.
    Mr. Brady. No, thank you.
    The Chairman. Any other comments?
    If not and there is no further debate, then the question is 
on whether the committee will adopt the resolution.
    All in favor of the amendment will signify by saying aye.
    Opposed will say nay.
    In the opinion of the chair, the ayes have it.
    The ayes have it. The amendment is agreed to.
    Now I move that the committee adopt the committee 
resolution, as amended. And the question is on the motion to 
adopt the resolution.
    All in favor, signify by saying aye.
    Opposed, say nay.
    In the opinion of the chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    Third item on the agenda is the Committee Resolution 114-3, 
the parking policy for the 114th Congress. Pursuant to House 
rule X, clause 1, the Committee on House Administration has 
jurisdiction over the parking facilities used by Members, 
staff, and authorized personnel of the House of 
Representatives.
    I call before committee Committee Resolution 114-3, the 
committee parking policy.
    Without objection, the first reading of the resolution is 
dispensed with, and the resolution is considered read and open 
for amendment at any point.
    [The information follows:]

          COMMITTEE ON HOUSE ADMINISTRATION RESOLUTION 114-XX


                     Parking Policy 114th Congress


                   (Effective Date January 27, 2015)

    Resolved, that the Committee on House Administration 
Parking Policy is hereby adopted as follows:

                        PARKING POLICY OVERVIEW

    1. Parking in the United States House of Representatives 
garages, lots, and designated parking areas is a privilege for 
Members, staff, and authorized personnel in support of the 
House of Representatives. Parking in these areas shall be on a 
permit only basis.
    2. All vehicles parked in House permit-only areas must 
display both valid license plates and a current House parking 
permit. Current permits must be displayed visibly on 
motorcycles and on bicycles. All parking permits must be 
clearly displayed while parked on House premises. In addition 
to a current permit, all staff may be required to show a valid 
House ID upon entering House parking areas within the secured 
perimeter. Staff members, in addition to carrying a current 
permit, must show a valid House ID when entering all other 
House parking areas.
    3. The House will not be liable for any damage or theft 
caused to any motor vehicle, or contents thereof, while parked 
in a House parking garage or on a House parking lot, whether or 
not the garage or lot is staffed.
    4. Any situation or circumstance not defined within this 
parking policy will be decided upon by the Committee on House 
Administration in consultation with House Parking Security.

                                PERMITS

    1. Parking permits must be authorized through the office of 
a House employing authority and are available only to current 
House Members and staff holding a valid Congressional ID and 
current license plate. Shared employees may be authorized a 
permit from any of their employing offices. Permits are 
exclusively for the use of the employing offices and House 
staff. Employing officers and House staff may not transfer 
permits.
    2. Members and staff receiving a mass transit benefit are 
not eligible for parking permits (permanent or temporary) 
unless approval is obtained from the Committee on House 
Administration. If approval is granted, the requestor shall 
pick-up the temporary permit from the House Parking Security 
office (G2-28 Rayburn HOB) and park in a lot designated by 
House Parking Security (HPS). Approval is not needed for 
weekend and holiday parking, however, a temporary permit must 
be obtained from the House Parking Security office (G2-28, 
RHOB) and can only be requested one business day in advance of 
the desired date of use. Members and staff who utilize mass 
transit benefits can obtain a bicycle permit for the permit-
only bicycle racks and still retain their mass transit 
benefits.
    3. Spouses of Members may park in any garage or lot, on a 
space available basis and will be issued temporary permits if 
they are not using the Member plate. In addition, spouses will 
be required to present a Spouse ID. Due to the lack of 
available spaces, Spouses of Members may only park in the 
Cannon Garage if they use the Cannon-designated Member plate.
    4. Permits cannot be assigned without written notification 
from an employing office on office letterhead and signed by 
office parking coordinator or Member of the issuing office.
    5. It is the responsibility of the employing office to 
retrieve parking permits when staff departs from their office. 
Employing offices whose departing staff have not returned their 
parking permits will be subject to a 30-day hold before re-
assignment of the permit. (Note: Departing employees may 
receive a temporary parking permit for their last day(s) of 
employment in order for the permit to be removed in a timely 
manner.)
    6. Non-staff temporary permits may be issued at the request 
of an official parking coordinator or Member. The location of 
parking will be determined by House Parking Security. Requests 
should be on the office letterhead, signed by the official 
parking coordinator or Member and provide the user's name and 
vehicle information (make, model, color, and license plate 
information). The maximum duration of a temporary permit is 14 
business days in a 6 month period. Any individual needing a 
temporary permit for more than 14 business days in a 6 month 
period must submit a request to the Committee on House 
Administration for approval. Registered lobbyists will not 
receive temporary permits. Transit benefit recipients will only 
be granted temporary permits when approved by the Committee on 
House Administration.
    7. Authorized permit holders who temporarily need to use an 
alternate vehicle should visit House Parking Security to obtain 
a temporary permit for that vehicle.

                           MULTIPLE VEHICLES

    1. Members and staff may register more than one vehicle to 
a single parking permit.
    2. Individuals with a House ID that have multiple vehicles 
should register their additional vehicle(s) with their 
employing office's parking coordinator who will notify the 
Office of House Garages and Parking Security. Permits will be 
applied to each registered vehicle by the Office of House 
Garages and Parking Security (G2-28 Rayburn).
    3. An individual with House ID may not have multiple 
vehicles parked in House permit-only areas at all times. A 
Member and their spouse may simultaneously have vehicles parked 
in House permit-only areas provided that each has a House ID.
    4. Staff registering more than one (1) vehicle will be 
required to show vehicle registration for all vehicles as proof 
of ownership before a permit is affixed to the windshield.

                           UNRESERVED PARKING

    1. House Members may choose their unreserved parking space 
from any available space in the various garages/lots/streets.
    2. Unreserved staff parking is available on a first-come, 
first-served basis in the designated parking areas assigned to 
the employing office. This does not include special needs and 
reserved spaces.
    3. Vehicles, including motorcycles and bicycles, cannot be 
stored in any unreserved space in a House parking area, except 
Member vehicles parked during periods when the House is not in 
session, the Member is traveling on official business, Member 
illness or similar circumstances. Stored is defined as being 
continuously parked in an unreserved space for more than thirty 
(30) consecutive calendar days. A vehicle not displaying both a 
current parking permit and valid license plates will also be 
considered a stored vehicle.

                            RESERVED PARKING

    1. Members of the House may choose their reserved parking 
spaces from any unassigned space in the various garages. Only 
Members whose offices are in Cannon may choose a Cannon space.
    2. Staff must choose their reserved space from the 
designated parking areas indicated on their permit.
    3. Each person who reserves or shares a reserved indoor 
space incurs additional taxable income as a working condition 
fringe benefit. Under the tax code and IRS regulations, Members 
and their employees have imputed taxable income to the extent 
that the fair market value of Government-provided parking 
exceeds $215.00/month. The fair market value of a space at the 
House of Representatives is $290.00/month and therefore, as of 
January 3, 2015, the imputed taxable income is $40.00/month. 
These amounts are subject to change. (Contact Office of Payroll 
and Benefits for current rates at extension 5-1435.)
    4. Only individuals with reserved parking will be permitted 
to park their vehicles in their designated spaces for an 
indefinite period of time with valid license plates.
    5. The Committee on House Administration reserves the right 
to limit the number of reserved spaces at any time.

                         MEMBER PARKING PLATES

    Member parking plates are only for the use of the Member 
and spouse, as well as for immediate transportation of the 
Member by staff. Only Members whose plates contain a Cannon-
designation may park in the Cannon garage using the Member 
plate. Former Members (except registered lobbyists) will be 
permitted to park using either temporary permits or Member 
parking plates from previous Congresses, but must also present 
a former Member ID.

                            CARPOOL PARKING

    House employees interested in carpool parking should 
contact the Office of House Garages and Parking Security 
(extension 5-6749). Carpools must have a minimum of two 
employees from House employing offices. The carpool permit must 
come from the employing office's parking roster of one of the 
carpool members.
    If multiple vehicles associated with a carpool are found in 
the House parking areas, simultaneously, individuals associated 
with this carpool will lose their carpool privileges for the 
remainder of the current Congress.

                       EVENING AND NIGHT PARKING

    Swing shift employees, (work schedule 2:00 pm to 7:30 am) 
should park in areas designated by House Parking Security. 
Certain parking areas designated by House Parking Security will 
be made accessible to swing shift employees starting at 4 pm 
based on space availability. Swing shift employees who are held 
over on assignment will be required to move to a designated lot 
before 7:30 am. Parking coordinators who are interested in 
parking for Swing shift employees should contact House Parking 
Security (extension 5-6749). All swing shift employees' parking 
must be authorized via their office's parking coordinator.

                    AMERICANS WITH DISABILITIES ACT

    Staff authorized a parking permit by their employing 
authority that require accessible parking based on special 
needs considerations will be accommodated on an as-needed basis 
in spaces clearly marked for that purpose. Such permits will 
come from the pool of permits assigned to the office. Staff 
will be required to display the State-assigned handicap 
designation.

                        GROUP AND EVENT PARKING

    Requested group and event parking may be approved on House 
parking areas for morning events prior to 8:30 am and events 
after 5:30 pm. The request should be made, in writing on office 
letterhead and signed by the Member or parking coordinator of 
the requesting entity. The letter should contain the name of 
the group, event date, time, location, and approximate number 
of vehicles requesting parking. If approved, other information 
may be required for security reasons. Requests should be 
emailed or faxed to House Garages and Parking Security (G2-28 
Rayburn, fax 6-1950). Group parking needs will be accommodated 
in House parking areas designated by House Parking Security.

                               VIOLATIONS

    Violations include, but are not limited to:
    <bullet> Failure to display proper identification (license 
plates and parking permit or Member plate) while in a garage, 
lot, or designated on-street parking area;
    <bullet> Failure to park in the assigned space, garage, 
lot, or parking area;
    <bullet> Failure to park within marked spaces;
    <bullet> Improper use of a Member plate;
    <bullet> Unauthorized parking in reserved spaces;
    <bullet> Storing of a vehicle in any House garage, lot, or 
designated parking area.
    Generally, notice of violation(s) will be provided as 
follows:
    <bullet> First Violation: Written notice from House Garages 
and Parking Security placed on vehicle;
    <bullet> Second Violation: E-mail or letter to permit 
holder;
    <bullet> Third Violation: E-mail or letter to employing 
authority and permit holder;
    <bullet> Fourth Violation: Suspension of parking privileges 
for thirty (30) days. The employing authority may not issue 
this permit to another employee during the suspension.
    <bullet> Fifth Violation: Suspension of parking privileges 
for sixty (60) days. The employing authority may not issue this 
permit to another employee during the suspension.
    <bullet> Sixth Violation: Suspension of parking privileges 
for the remainder of the Congress or 180 days (whichever is 
greater). The employing authority may not issue this permit to 
another employee for 90 days.
    Any non-temporary permit user on the mass transit list with 
a vehicle in permit-only areas will have their permit 
immediately removed from their vehicle.
    Vehicles that are determined to be a security risk or 
create a hazard as determined by the Capitol Police, will be 
immediately towed.
    The Chairman. The parking policy for this Congress was 
created, again, in consultation with the minority.
    I certainly want to thank them for their suggestions, the 
bipartisan work on the parking policy.
    I further want to thank the House parking security for 
working with the committee in developing the policy.
    Of course, due to the Cannon construction, only Members 
with a Cannon-designated Member plate can now park in the 
Cannon garage, which is new this year, this Congress, as we 
have our construction beginning there.
    I recognize Mr. Brady, ranking member, if he has any 
comment.
    Hearing none, would any other Member like to make a comment 
or amendment?
    I move that the committee adopt the Committee Resolution.
    The question is on the motion to adopt the resolution.
    All Members in favor, signify by saying aye.
    Opposed, say no.
    In the opinion of the chair, the ayes have it.
    The ayes have it. The motion is agreed to. And, without 
objection, the motion to reconsider is laid upon the table.
    The last item on the agenda is Committee Resolution 114-4. 
This is a designation of an electronic repository. Without 
objection, the first reading of the resolution is dispensed 
with, and the resolution is considered read and open for 
amendment at any point.
    [The information follows:]

                      COMMITTEE RESOLUTION 114-XX

    Resolved, that the U.S. House of Representatives Document 
Repository located at docs.house.gov shall be the location for 
public availability in electronic form of documents specified 
in clause 3 of House Rule XXIX.
    The Chairman. Pursuant to House Resolution 4, section 30, 
the Committee on House Administration designates the permanent 
electronic repository for the public availability of documents, 
as required by clause 3 of rule XXIV. This resolution 
designates a Web site, which is docs.house.gov, as the 
repository. Having this electronic repository allows our House 
to continually improve the ways that we provide information to 
our constituents. There is certainly nothing more important 
than holding ourselves accountable to the American people and 
ensuring the public has easy access to legislative material. 
That only furthers our efforts to improve transparency, I 
think, in this institution. Docs.house.gov, the committee live-
streaming program, and other transparency measures have made 
the House more transparent than ever before.
    I want to thank the Speaker's Office and the House officers 
as well for their efforts in this area.
    I would like to ask Mr. Brady if he has any comments.
    Mr. Brady. No.
    The Chairman. Hearing none, any other Member have a comment 
or amendment?
    Then I move the committee adopt the committee resolution.
    The question is on the motion to adopt the resolution.
    All Members in favor, signify by saying aye.
    All Members opposed will say nay.
    In the opinion of the chair, the ayes have it.
    The ayes have it. The motion is agreed to. Without 
objection, the motion to reconsider is laid upon the table.
    This concludes all the matters before the committee. Again, 
I want to thank all of the Members for their participation this 
morning in this very expedient hearing that we had this 
morning.
    I certainly look forward to working with each and every one 
of you as we go forward into the 114th Congress.
    Mr. Ranking Member, we have a lot of work to do. But as you 
say, we work together very well, and we are looking forward to 
all of the challenges that are facing our Nation and this 
committee as well.
    Thank you all very much.
    With that, the meeting is adjourned.
    [Whereupon, at 10:47 a.m., the committee was adjourned.]

                                  [all]
                                  
                                  
</pre></body></html>
